TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       The Modernization and Information
                       Technology Services Organization’s
                      Revised Post Implementation Review
                          Procedure Can Be Improved



                                        October 26, 2006

                              Reference Number: 2007-20-001




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          October 26, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – The Modernization and Information Technology
                             Services Organization’s Revised Post Implementation Review
                             Procedure Can Be Improved (Audit # 200620039)

 This report presents the results of our review of the Modernization and Information Technology
 Services organization’s revised Post Implementation Review (PIR) procedure. The overall
 objective of this review was to determine the adequacy of the procedures for performing PIRs to
 assess benefits and capabilities of new information technology projects. This review was part of
 our Fiscal Year 2006 audit plan for reviews of the Internal Revenue Service’s (IRS) Business
 Systems Modernization (BSM) efforts.

 Impact on the Taxpayer
 PIRs assess the impact of a new information technology project by comparing and evaluating
 actual project results to estimates of cost, schedule, performance, and mission improvement
 outcomes. Once a PIR is completed, the results should be archived and distributed to affected
 parties, particularly those with decision-making authority who could most benefit from the
 recommendations and lessons learned. The IRS is in the process of updating PIR guidance used
 in conducting project assessments. However, additional enhancements to the PIR guidance
 would help ensure taxpayer funds spent on the program are being used effectively and
 efficiently.
                     The Modernization and Information Technology Services
                  Organization’s Revised Post Implementation Review Procedure
                                        Can Be Improved



Synopsis
In June 2000, the BSM Office (BSMO), which is now in the Applications Development office,
issued PIR procedures as part of the Enterprise Life Cycle.1 In October 2004, the BSMO issued
a BSMO Procedure updating the June 2000 procedures and changing the responsible office to the
Program Performance Management office.2 This 2004 update provided additional details for
launching and performing PIRs and added the requirement to perform Post Reviews of milestone
completion activities. The Program Performance Management office stated it added the Post
Reviews of milestone completion activities to the 2004 guidance as a way to further enhance
post implementation controls in response to preliminary Government Accountability Office
(GAO) findings related to PIRs. Following a formal GAO recommendation in
November 2004,3 the Program Performance Management office stated it would again update the
PIR procedures by September 2006.
The Program Performance Management office has initiated a
PIR of the e-Services project. This Review will serve as a
                                                                 The Program Performance
pilot for implementing the updated PIR procedures. The
                                                                Management office needs to
Program Performance Management office’s plans include          implement its PIR process to
having the IRS Office of Program Evaluation and Risk              provide the IRS feedback
Analysis and the Wage and Investment Division Customer             about operating its new
Account Services office assist in the review. The Program           computer systems to
                                                                  provide better service to
Performance Management office planned to perform the e-
                                                                         taxpayers.
Services project PIR between May and July 2006 and issue
the PIR report by September 2006. Completion of the PIR
and any procedure updates in September 2006 were intended to help the IRS meet its
commitment to the GAO to implement corrective actions making the PIR process more
meaningful.
Our review of the June 2000 Enterprise Life Cycle procedures, the October 2004 BSMO
Procedure, and the May 2006 draft procedures showed these guidance documents generally
incorporate the requirements issued by the Office of Management and Budget and the GAO.4
The May 2006 draft procedures provide additional detail to clarify some PIR processes in the
current Enterprise Life Cycle and BSMO procedures. Although both the October 2004 and
updated draft procedures provide adequate direction to perform a PIR, the Program Performance


1
  Appendix V presents an overview of the Enterprise Life Cycle.
2
  The Program Performance Management office is currently part of the Modernization and Information Technology
Service Enterprise Services organization.
3
  Business Systems Modernization: IRS’ Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated November 2004).
4
  Conducting Post-implementation Reviews Using a Standard Methodology (GAO Evaluation Process, dated
February 2006).
                                                                                                            2
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved


Management office has not scheduled reviews for all projects that have exited milestones or for
deployed releases. Further, it has not completed its process for capturing and managing
documentation related to PIRs such as Post Review reports, PIR reports, and lessons learned
documents. Additionally, it has not identified the reviewer qualifications or training needed to
prepare participants to perform Post Reviews and PIRs.
Without the information accumulated and developed from a PIR, senior management may not
have necessary information about the issues with implemented systems to decide to continue,
modify, or terminate their operations. Management may also lack the information necessary to
decide about further actions needed to achieve anticipated system benefits to meet agency
mission requirements and projected return on investment. The need for this information will
become more critical as the IRS begins implementing its Information Technology Modernization
Vision and Strategy, which itemizes numerous new projects. Without the ability to readily
access PIR documentation, reports, and lessons learned, project and program managers may not
make the best decisions to promote project deployment and direct the modernization program.
Also, PIRs can be successful only if they are staffed with qualified and trained team members.

Recommendations
The Chief Information Officer should direct the Program Performance Management office to
develop a schedule to perform PIRs for deployed releases; identify and obtain staffing resource
commitments needed from the Program Performance Management office, the Office of Program
Evaluation and Risk Analysis, and appropriate business unit representatives to effectively
execute PIRs; eliminate the requirement to perform Post Reviews of milestone completion
activities; implement a procedure to control PIR results that ensures appropriate executives and
decision makers have access to these documents; identify skills and abilities desired for PIR team
members and ensure team assignments consider these qualifications; and develop a training
guide for PIR team members to provide them with an understanding of the purpose, objectives,
and processes of the PIR.

Response
The IRS agreed with the three report recommendations and has successfully eliminated the
requirement to perform Post Reviews of project milestone activities. Due to other priorities,
including enhancing the Modernization and Information Technology Services organization’s
Governance and Program Control processes as mandated in the pending Fiscal Year 2007
Treasury/IRS Appropriations language, the IRS is uncertain when the remaining corrective
actions will be completed. The IRS will prioritize these recommendations with other urgent
needs as part of the Modernization and Information Technology Services organization’s ongoing
High Priority Initiative process. Management’s complete response to the draft report is included
as Appendix VIII.
                                                                                                   3
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



Office of Audit Comment
Although the IRS is focusing its efforts on enhancing the Governance and Program Control
processes as mandated in the pending Fiscal Year 2007 Treasury/IRS Appropriations language, it
should be noted that established laws, regulations, policies, and procedures have required PIRs of
new information technology projects since 1990. These requirements are presented in the
Background section and Appendix VI of this report. For example, Office of Management and
Budget Circular No. A-130, Management of Federal Information Resources, dated March 2006,
requires agencies to develop a capital planning and investment control process that links mission
needs, information, and information technology effectively and efficiently. This process states
that agencies must conduct PIRs of information systems and information resource management
processes to (1) validate estimated benefits and costs and (2) document effective management
practices for broader use.
The PIR process is an integral component of the Governance and Program Control process and
should have been an ongoing activity to assess program accomplishments and performance.
Postponing corrective actions, which would have established a schedule and resource
commitments to perform PIRs, will not assist the IRS in making informed decisions to continue,
modify, or terminate information technology projects.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                4
                         The Modernization and Information Technology Services
                      Organization’s Revised Post Implementation Review Procedure
                                            Can Be Improved




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Post Implementation Review Guidance Is Being Updated to Provide
          Appropriate Direction to Develop Meaningful Project Assessments ......... Page 3
          Enhancements to Post Implementation Review Procedures
          Can Make Them More Effective and Efficient.............................................Page 5
                    Recommendation 1:........................................................Page 9

                    Recommendations 2 and 3: ..............................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Outcome Measure ................................................................Page 15
          Appendix V – Enterprise Life Cycle Overview............................................Page 16
          Appendix VI – Authorities Requiring Post Reviews of New
          Information Technology Projects .................................................................Page 20
          Appendix VII – Glossary of Terms ..............................................................Page 21
          Appendix VIII – Management’s Response to the Draft Report ...................Page 24
            The Modernization and Information Technology Services
         Organization’s Revised Post Implementation Review Procedure
                               Can Be Improved




                        Abbreviations

BSM                 Business Systems Modernization
BSMO                Business Systems Modernization Office
ELC                 Enterprise Life Cycle
GAO                 Government Accountability Office
IRS                 Internal Revenue Service
PIR                 Post Implementation Review
U.S.C.              United States Code
                      The Modernization and Information Technology Services
                   Organization’s Revised Post Implementation Review Procedure
                                         Can Be Improved




                                             Background

Post Implementation Reviews (PIR) assess the impact of a new information technology project
by comparing and evaluating actual project results to estimates of cost, schedule, performance,
and mission improvement outcomes. Federal Law,1 Executive Branch guidance,2 and the
Internal Revenue Service (IRS) Enterprise Life Cycle (ELC)3 establish the need to perform PIRs
after project completion and after completion of major project releases. PIRs include the
following activities:
    •   Assessment of project effectiveness in meeting the
        original objectives.                                                        The key focuses of PIRs
                                                                                    are to assess the impact
    •   Identification of benefits achieved to determine whether                     of new projects on the
        they match projected benefits, and reasons for any                          IRS mission, customers,
        discrepancies.                                                                   workforce, and
                                                                                           technology.
    •   Evaluation of original business assumptions used to justify
        a project.
    •   Comparison of actual life cycle investment costs incurred to projections.
    •   Assessment of the impact of project risks.
    •   Determination of project timeline and implementation date achievements.
    •   Identification of management and user perspectives on a project.
    •   Evaluation of issues requiring continued attention.
PIRs are a vital part of the Investment Decision Management process. Lessons learned
developed as part of the PIR activity should be used to recommend changes that improve the
investment process (e.g., selection, control, or evaluation) and the management of individual
investments. For example, PIR report recommendations may include suggested refinements of
criteria to select future projects. Once a PIR is completed, the results should be archived and



1
  Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996) (Information Technology Management
Reform Act of 1996), Pub. L. No. 104-106, 110 Stat. 642 (codified in scattered sections of 5 U.S.C., 5 U.S.C. app.,
10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C., 22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C.,
41 U.S.C., 42 U.S.C., 44 U.S.C., 49 U.S.C., 50 U.S.C.).
2
  Management of Federal Information Resources (Office of Management and Budget Circular No. A-130, dated
March 2006).
3
  See Appendix V for an overview of the ELC.
                                                                                                            Page 1
                       The Modernization and Information Technology Services
                    Organization’s Revised Post Implementation Review Procedure
                                          Can Be Improved



distributed to affected parties, particularly those with decision-making authority who could most
benefit from the recommendations and lessons learned.
In November 2004, the Government Accountability Office (GAO) recommended4 the IRS Chief
Information Officer ensure PIRs are performed after Business Systems Modernization (BSM)
projects are deployed. The recommendation suggested the PIRs include analyses of quantitative
and qualitative investment data to determine, at a minimum, whether expected benefits were
achieved. The IRS responded with corrective action plans to implement new procedures that not
only extend to the PIR process as recommended by the GAO but also look at lessons learned at
the end of each project milestone and retain the results of these comprehensive reviews in a
repository available to everyone in the BSM Program. The IRS planned to complete its
corrective actions in September 2006.
This review was performed at the Modernization and Information Technology Services
organization’s facilities in New Carrollton, Maryland, during the period February through
May 2006. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II. Appendix VI presents the authorities
requiring post implementation review of new information technology projects. Appendix VII
presents a glossary of terms.




4
    Business Systems Modernization: IRS’ Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated November 2004).
                                                                                                      Page 2
                     The Modernization and Information Technology Services
                  Organization’s Revised Post Implementation Review Procedure
                                        Can Be Improved




                                    Results of Review

Post Implementation Review Guidance Is Being Updated to Provide
Appropriate Direction to Develop Meaningful Project Assessments
In June 2000, the BSM Office (BSMO), which is now in the Applications Development office,
issued PIR procedures as part of the ELC. In October 2004, the BSMO issued a BSMO
Procedure updating the June 2000 procedures and changing the responsible office to the Program
Performance Management office.5 This 2004 update provided
additional details for launching and performing PIRs and added
the requirement to perform Post Reviews of milestone completion      The PIR process, first
activities. The Program Performance Management office stated it       issued in June 2000,
added the Post Reviews of milestone completion activities to the         was updated in
2004 guidance as a way to further enhance post implementation         October  2004 and is
                                                                    again being updated by
controls in response to preliminary GAO findings related to PIRs.
                                                                   the Program Performance
Following a formal GAO recommendation in November 2004, the            Management office.
Program Performance Management office stated it would again
update the PIR procedures by September 2006.
To assess modernization project capabilities and benefits, the ELC currently provides guidance
that includes identifying review responsibilities, performing review activities, and
communicating review results in the form of a post review report and/or lessons learned
document. This guidance directs the Enterprise Services Program Performance Management
office to initiate PIR activities.
Current PIR procedures specify two types of reviews:
    •   Post Reviews assess project processes and activities during the design, development, and
        deployment phases. These Reviews involve analyses of (1) the project’s contract,
        including financial data and the contract schedule, and (2) performance metrics,
        including cost and schedule variance analysis. These Reviews also include analysis of
        survey and interview data from acquisition project management teams and assessments
        from the Architecture, Security, Risk Management, and other offices. Post Reviews
        should be completed within 1 month to 4 months from project milestone exits and release
        deployments. This type of Review is also performed for projects that have been
        cancelled.


5
 The Program Performance Management office is currently part of the Modernization and Information Technology
Services Enterprise Services organization.
                                                                                                     Page 3
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



   •   Post Implementation Reviews assess the outcomes, capabilities, and benefits of deployed
       releases and projects. The PIR not only includes analyses in a post review, it also
       involves analyses of the following project products:
       o Office of Management and Budget Exhibit 300, Capital Asset Plan and Business
         Case.
       o Case for Action and Baseline Business Case.
       o Project Description, Concept of Operations, Vision and Strategy documents.
       o Task Order or Contract project requirements (high level).
       o Responses from business owners using surveys and interviews.
       o Responses from end users using surveys and interviews.
       o Responses from system maintainers using surveys and interviews.
       o Business performance metrics (input, output, efficiency, and outcome).
       o Business process reengineering documentation.
       The PIR should be completed within 6 months to 18 months after each project release
       deployment.
Performance of the PIR is followed by a post review session. The Program Performance
Management office hosts the post review session and uses the results to develop a lessons
learned document. The lessons learned document is incorporated into the final PIR report. The
Post Review and PIR reports, which include documentation of lessons learned, are finalized and
distributed to the Acquisition Project Manager, business owner, external Federal Government
“audit” agencies (i.e., the GAO and Treasury Inspector General for Tax Administration), and
IRS senior leadership, as appropriate. The Post Review report includes:
   •   Highlights of post review project performance metrics and key assessments.
   •   The top three “What Went Wrong.”
   •   The top three “What Went Right.”
   •   An overview of the top lesson developed and type of lesson.
   •   Recommendations and insights regarding improvement of acquisition, investment review,
       or capital planning processes.
   •   Areas requiring resolution.
During our audit, the Program Performance Management office initiated a PIR of the e-Services
project. This Review was intended to serve as a pilot to gather additional input for procedure

                                                                                        Page 4
                    The Modernization and Information Technology Services
                 Organization’s Revised Post Implementation Review Procedure
                                       Can Be Improved



updates. The Program Performance Management office’s plan included assistance by the IRS
Office of Program Evaluation and Risk Analysis in the Review. During our audit, the Program
Performance Management office was finalizing the PIR work plan and related survey and
Review templates. Review participants included representatives from the e-Services project
team and the Wage and Investment Division Customer Account Services office. The Program
Performance Management office planned to perform the e-Services project PIR between May
and July 2006 and issue the PIR report by September 2006. Completions of the PIR and any
procedure updates in September 2006 were intended to help the IRS meet its commitment to the
GAO to implement corrective actions making the PIR process more meaningful.

Enhancements to Post Implementation Review Procedures Can Make
Them More Effective and Efficient
Our review of the June 2000 ELC procedures, the
October 2004 BSMO Procedure, and the May 2006 draft                     The Program Performance
procedures showed these guidance documents generally                   Management    office needs to
                                                                      implement its PIR process to
incorporate the requirements issued by the Office of                     provide the IRS feedback
Management and Budget and the GAO.6 The May 2006 draft                    about operating its new
procedures provide additional detail to clarify some PIR                   computer systems to
processes in the current ELC and BSMO procedures. Although               provide better service to
both the October 2004 and updated draft procedures provide                      taxpayers.
adequate direction to perform a PIR, the Program Performance
Management office has not scheduled reviews for all projects
that have exited milestones or for deployed releases. Further, it has not completed its process for
capturing and managing documentation related to PIRs such as Post Review reports, PIR reports,
and lessons learned documents. Additionally, it has not identified the reviewer qualifications or
training needed to prepare participants to perform the Post Reviews and PIRs.

All PIRs have not been identified and scheduled
In response to the GAO’s November 2004 recommendation to perform PIRs after project release
deployment, the IRS planned corrective action to conduct the first PIRs under its new process by
the end of the Calendar Year 2004 and within 45 calendar days of passing each subsequent
project milestone. The IRS has approved 15 milestone exits and 9 release deployments since the
November 2004 GAO recommendation. However, it has completed only three Post Reviews of
milestone exits and no PIRs of release deployments. Table 1 presents an analysis of post review
activities for the milestones exited and releases deployed.



6
 Conducting Post-implementation Reviews Using a Standard Methodology (GAO Evaluation Process, dated
February 2006).
                                                                                                      Page 5
                    The Modernization and Information Technology Services
                 Organization’s Revised Post Implementation Review Procedure
                                       Can Be Improved



     Table 1: Modernization Project Milestone Exits and Release Deployments
                              Since November 2004
    Project          Release        Milestone       Release         Release           Review         Report
                     Milestone        Exit                        Deployment           Type           Date
Customer Account
                                                       1.2       January 18, 2005       None
  Data Engine
                                                      1.3.1     September 19, 2005      None
                                                      1.3.2      January 17, 2006       None
                     Release 2.1/
                                    May 5, 2006                                         None
                     Milestone 3
    Custodial
   Accounting                                       Cancelled   February 5, 2005*    Post Review     June 2005
     Project
                     Release 2.0/
    e-Services                      May 30, 2005       2.0       August 31, 2005        PIR          In process
                     Milestone 4
Filing and Payment   Release 1.1/
                                    July 5, 2005                                        None
    Compliance       Milestone 3
                     Release 1.1/
                                     August 30,
                      Milestone                                                         None
                                       2005
                         4A
                     Release 1.1/
                                     January 23,
                      Milestone                        1.1       January 24, 2006       None
                                        2006
                         4B
                     Release 1.2/   February 28,
                                                                                        None
                     Milestone 3       2006
    Integrated
                     Release 1/
     Financial                                         1        November 29, 2005    Post Review    April 2005
                     Milestone 4
      System
                     Release 3.1/
   Modernized
                     Milestone 4,   April 1, 2005      3.1       March 24, 2005         None
     e-File
                     Milestone 5
                     Release 3.2/    February 4,
                                                                                        None
                     Milestone 3        2005


                     Release 3.2/
                                      April 28,                                                      February
                      Milestone                        3.2       March 22, 2006      Post Review
                                       2005                                                            2006
                         4A



                                                                                                   Page 6
                        The Modernization and Information Technology Services
                     Organization’s Revised Post Implementation Review Procedure
                                           Can Be Improved



      Project           Release         Milestone      Release          Release    Review      Report
                        Milestone         Exit                        Deployment    Type        Date
                        Release 3.2/
    Modernized                           March 22,
                        Milestone 4,                                                None
    e-File (cont.)                        2006
                        Milestone 5
                        Release 4/     December 5,
                                                                                    None
                        Milestone 3       2005
                         Release 4/
                                         April 21,
                         Milestone                                                  None
                                          2006
                            4A
        Totals               15                            9                         4
Source: The BSMO and its online web site.
* Custodial Accounting Project cancellation Post Review report issued June 2005.

 The three Post Reviews performed by the Program Performance Management office adequately
 assessed the project’s costs, schedule, and performance. The Program Performance Management
 office has initiated a PIR for the e-Services project and is in the process of determining the
 resources needed to conduct the Post Review and PIR. However, it has not yet received
 commitments from offices outside of the Program Performance Management office to participate
 as team members.
 Limited resources may prevent the IRS from fully implementing planned corrective actions to
 the November 2004 GAO report, specifically performing a Post Review within 45 calendar days
 of passing project milestones. The IRS already performs a detailed Milestone Exit Review
 before passing each project milestone, which provides executives sufficient information to assess
 a project’s progress and plans. In preparation for the Milestone Exit Review, project teams
 develop a set of documents to provide executive management the ability to assess the project’s
 progress against ELC criteria prior to milestone exits. This Review helps to ensure progressing
 to the next project phase is appropriate. Milestone exits are approved by senior executives that
 form the Modernization and Information Technology Services Enterprise Governance board
 using the information developed in the Milestone Exit Review.
 The Post Reviews of milestone activities performed by the Program Performance Management
 office in 2005 required approximately 63 staff days each to complete at a cost of approximately
 $28,000 per review. To comply with current guidelines, the IRS would have had to perform an
 additional 12 Post Reviews of milestone activities by September 5, 2006 (see Table 1 above).
 These Reviews would cost approximately $336,000. In addition, the IRS would have to perform
 an estimated 26 additional Post Reviews of milestone activities over the next 5 years for projects
 currently in development. We estimate these 26 Post Reviews of milestone completion activities
 would cost an estimated $728,000. By no longer performing Post Reviews of milestone
 activities the IRS would eliminate the inefficient use of $1,064,000 (see Appendix IV for

                                                                                            Page 7
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



details). Further, the Information Technology Modernization Vision and Strategy shows work
for 54 projects in Fiscal Years 2007 and 2008.
The Program Performance Management office is also facing imminent deadlines for performing
PIRs within 6 months to 18 months of release deployment. Although the e-Services pilot PIR is
being initiated, the Customer Account Data Engine project Release 1.2 (deployed
January 18, 2005) and Modernized e-File project Release 3.1 (deployed March 24, 2005) will
pass the 18-month time period during the planned performance of the e-Services project PIR.

A process to capture PIR documentation is in development
The IRS response to the GAO November 2004 report included
agreement to capture the results of the PIRs in a repository that
is available to everyone in the BSM Program. The IRS planned         After a PIR, lessons
to use the Document Management System as the repository in          learned may result in
which to control all PIR reports. The IRS planned to maintain       recommendations for
PIR reports along with lessons learned documents developed         changes   to the current
                                                                     portfolio and/or the
during the various reviews of modernization activities in the         overall investment
Document Management System. Since issuing this planned             decision management
corrective action, the Program Performance Management office               process.
recognized a need for more control over PIR reports to ensure
they are properly maintained and accessible to the appropriate
level of management. In September 2005, the IRS decided to
stop using the Document Management System to control PIR reports and lessons learned
documents due to an absence of adequate controls over access to these sensitive documents. It
postponed plans to control PIR reports in the Document Management System until it resolved the
report access issues.
As of May 25, 2006, the Program Performance Management office had not yet developed a
revised process to allow for the control and maintenance of current PIR reports or methods to
capture and control future PIR reports. These reports provide valuable information about the
continuation, modification, or termination of a project. The reports also present results about the
project’s ability to meet agency mission requirements, assess whether guiding assumptions still
hold in terms of meeting the projected return on investment, or provide a basis for
recommendations about future investment decisions.

Qualifications and training for PIR participants have not been developed
The GAO presents as a prerequisite that individuals conducting PIRs are trained. Thus, the PIR
team members must be objective, well trained, and experienced when they conduct PIRs. Also,
the team leader should have past experience conducting similar investment reviews.
Neither the October 2004 nor the May 2006 draft PIR guidance identifies minimum
qualifications or experience needed for PIR team members. The Program Performance
                                                                                            Page 8
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



Management office also advised us that PIR training materials          The value of the PIR
have not been developed. It indicated it planned to have a            will depend to a large
briefing on the purpose and objectives of the PIR for team                 degree on the
members in advance of the e-Services project PIR activities.              credibility and
                                                                        competence of the
As the GAO presented in its prior report about the IRS’ execution         team members
of PIRs, a new procedure will not prove beneficial unless the IRS     conducting the study.
ensures it is followed, since the current procedure has not been
fully implemented. By completing the PIR procedure
development, scope identification, repository controls, and training materials, the Program
Performance Management office will be in a position to provide valuable feedback about the
accomplishments and capabilities of new systems and applications.
Without the information accumulated and developed from a PIR, senior management may not
have necessary information about the issues with implemented systems to decide to continue,
modify, or terminate their operations. Management may also lack the information necessary to
decide about further actions needed to achieve anticipated system benefits to meet agency
mission requirements and projected return on investment. The need for this information will
become more critical as the IRS begins implementing its Information Technology Modernization
Vision and Strategy, which itemizes numerous new projects. Without the ability to readily
access and analyze PIR documentation, reports, and lessons learned, project and program
managers may not make the best decisions to promote project development and deployment and
direct the modernization program. Also, PIRs can be successful only if they are staffed with
qualified and trained team members.

Recommendations
Recommendation 1: The Chief Information Officer should direct the Program Performance
Management office to develop a schedule to perform PIRs for deployed releases and to identify
and obtain staffing resource commitments needed from the Program Performance Management
office, the Office of Program Evaluation and Risk Analysis, and appropriate business unit
representatives to effectively execute the PIRs. The Chief Information Officer should also direct
the Program Performance Management office to eliminate the requirement to perform Post
Reviews of milestone completion activities after milestone exits, with the option of identifying
any lessons learned for further project progress through the Milestone Exit Reviews.
       Management’s Response: The IRS agreed with our recommendation. The IRS has
       eliminated the requirement to perform Post Reviews of milestone activity and has
       developed and piloted a PIR process. The IRS also agreed with the need to develop and
       implement a scheduling process and a process to identify resource requirements and
       request these resources. While the IRS recognized the importance of this
       recommendation and subsequent corrective action, it stated that enhancing its

                                                                                          Page 9
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



       Governance and Program Control processes, as mandated in the pending Fiscal Year
       2007 Treasury/IRS Appropriations language, will require its immediate focus and
       available resources. The IRS will complete the corrective action as soon as resources are
       available. Until then, this corrective action is on hold with an implementation date of
       March 1, 2010, which reflects that this date is to be determined. The implementation date
       will be modified to represent an accurate completion date once a date is established. The
       IRS will prioritize this and the following recommendations with other urgent needs as
       part of its ongoing High Priority Initiative process.
Recommendation 2: The Chief Information Officer should direct the Program Performance
Management office to implement a procedure to control PIR results that ensures appropriate
executives and decision makers have access to these documents.
       Management’s Response: The IRS agreed with our recommendation, responding
       that, using the Document Management System controls, it has already initiated a
       sensitivity process to control access to the lessons learned. In addition, it has developed a
       draft revised process to allow for (1) the control and maintenance of current PIR reports
       and (2) methods to capture and control future PIR reports. The IRS agreed with the need
       to finalize the draft revised process that ensures appropriate executives and decision
       makers have access to the proper documents. As stated above, the IRS will prioritize the
       corrective actions for the recommendation with other urgent needs.
Recommendation 3: The Chief Information Officer should direct the Program Performance
Management office to identify skills and abilities desired for PIR team members and ensure team
assignments consider these qualifications. The Program Performance Management office should
develop a training guide for PIR team members to provide them with an understanding of the
purpose, objectives, and processes of the PIR.
       Management’s Response: The IRS agreed with our recommendation. The IRS will
       update the Post Review procedure to identify skills and abilities desired for PIR team
       members, to ensure team assignments consider these qualifications. Training materials
       for the e-Services PIR pilot were developed and used to provide the team members with
       an understanding of the purpose, objectives, and processes of the PIR. Based on the
       results from the e-Services PIR pilot, these materials will be updated to complete a PIR
       Training Guide. As stated above, the IRS will prioritize the corrective actions for the
       recommendation with other urgent needs.
       Office of Audit Comment: Although the IRS is focusing its efforts on enhancing the
       Governance and Program Control processes as mandated in the pending Fiscal Year 2007
       Treasury/IRS Appropriations language, it should be noted that established laws,
       regulations, policies, and procedures have required PIRs of new information technology
       projects since 1990. These requirements are presented in the Background section and
       Appendix VI of this report. For example, Office of Management and Budget Circular

                                                                                            Page 10
           The Modernization and Information Technology Services
        Organization’s Revised Post Implementation Review Procedure
                              Can Be Improved



No. A-130, Management of Federal Information Resources, dated March 2006, requires
agencies to develop a capital planning and investment control process that links mission
needs, information, and information technology effectively and efficiently. This process
states that agencies must conduct PIRs of information systems and information resource
management processes to (1) validate estimated benefits and costs and (2) document
effective management practices for broader use.
Additionally, we have concerns about the use of the High Priority Initiative process as a
means for prioritizing the implementation of these recommendations because this process
aims to address broad organizational policies and strategies rather than to develop and
implement specific program control processes. Therefore, we would expect the
recommended improvements to the PIR process to not be selected as High Priority
Initiatives.
The PIR process is an integral component of the Governance and Program Control
process and should have been an ongoing activity to assess program accomplishments
and performance. Postponing corrective actions, which would have established a
schedule and resource commitments to perform PIRs, will not assist the IRS in making
informed decisions to continue, modify, or terminate information technology projects.




                                                                                 Page 11
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



                                                                                 Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the adequacy of the procedures for
performing PIRs to assess benefits and capabilities of new information technology projects. This
review was part of our Fiscal Year 2006 audit plan for reviews of the IRS’ BSM efforts. To
accomplish our objective, we reviewed available documentation and interviewed staff members
from the Modernization and Information Technology Services organization Applications
Development office and the Enterprise Services Program Performance Management office and
business requirements representatives from the Wage and Investment Division Customer
Account Services office. Appendix VI presents the authorities requiring a PIR of new
information technology projects, and Appendix VII presents a glossary of terms. Specifically,
we:
I.     Determined whether the IRS had implemented key post implementation controls.
       A. Determined whether a PIR was performed for the e-Services project.
       B. Reviewed the e-Services project documentation, including the project management
          plan, and available e-Services project PIR plans and supporting information.
       C. Determined involvement in the e-Services project post implementation activities by
          the Program Performance Management office, Applications Development office,
          Office of Program Evaluation and Risk Analysis, and Wage and Investment Division
          Customer Account Services office.
II.    Reviewed PIR performance criteria issued by the IRS for compliance with Office of
       Management and Budget, GAO, and ELC procedures.
       A. Determined the status of the IRS corrective actions to address recommendations in
          performing PIRs as presented in the GAO report entitled Business Systems
          Modernization: IRS’ Fiscal Year 2004 Expenditure Plan (GAO-05-46, dated
          November 2004).
       B. Determined the requirements for reporting PIR results to appropriate Modernization
          and Information Technology Services organization executives and governance
          boards.
       C. Determined how many modernization project release deployments and milestone
          exits have occurred since the November 2004 GAO report recommendation for
          performing PIRs.


                                                                                        Page 12
                  The Modernization and Information Technology Services
               Organization’s Revised Post Implementation Review Procedure
                                     Can Be Improved



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Gary V. Hinkle, Director
Edward A. Neuwirth, Audit Manager
Paul M. Mitchell, Senior Auditor
Glen J. Rhoades, Senior Auditor
Louis V. Zullo, Senior Auditor




                                                                                     Page 13
                 The Modernization and Information Technology Services
              Organization’s Revised Post Implementation Review Procedure
                                    Can Be Improved



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Commissioner, Wage and Investment Division SE:W
Associate Chief Information Officer, Applications Development OS:CIO:B
Associate Chief Information Officer, Enterprise Services OS:CIO:ES
Deputy Associate Chief Information Officer, Applications Development OS:CIO:AD
Director, Stakeholder Management OS:CIO:SM
Deputy Associate Chief Information Officer, Business Integration OS:CIO:ES:BI
Deputy Associate Chief Information Officer, Systems Integration OS:CIO:ES:SI
Chief Business Architect and Business Strategist SE:W:CAS:BSBA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Associate Chief Information Officer, Applications Development OS:CIO:B
       Director, Program Oversight OS:CIO:SM:PO




                                                                                 Page 14
                     The Modernization and Information Technology Services
                  Organization’s Revised Post Implementation Review Procedure
                                        Can Be Improved



                                                                                            Appendix IV

                                    Outcome Measure

This appendix presents detailed information on the measurable impact our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Potential; $1,064,000 (see page 5).

Methodology Used to Measure the Reported Benefit:
In October 2004, the BSMO issued a BSMO Procedure updating PIR guidance. This 2004
update added the requirement to perform Post Reviews of milestone completion activities.
In 2005, the Program Performance Management office performed Post Reviews of milestone
completion activities on the Integrated Financial System, Modernized e-File project, and
Custodial Accounting Project (post cancellation review). The Post Reviews of milestone
completion activities performed by the Program Performance Management office in 2005
required approximately 63 staff days each to complete, at a cost of approximately $28,0001 per
review, and totaled $84,000 for all 3 reviews.
To comply with current guidelines, the IRS will have to perform an additional 12 Post Reviews
of milestone completion activities by September 5, 2006. These Reviews would cost a total of
approximately $336,000. In addition, the IRS would have to perform an estimated 26 additional
Post Reviews of milestone completion activities over the next 5 years for projects currently in
development. We estimate these 26 Post Reviews of milestone completion activities would cost
an additional $728,000. Further, the Information Technology Modernization Vision and Strategy
shows work for 54 projects in Fiscal Years 2007 and 2008.
We recommended the IRS eliminate the requirement to perform Post Reviews of milestone
completion activities after milestone exits. Before passing each project milestone, the IRS
already performs a detailed Milestone Exit Review that provides executives sufficient
information to assess a project’s progress and plans. By no longer performing Post Reviews of
milestone completion activities, the IRS would potentially eliminate the inefficient use of
$1,064,000.


1
 Review costs were calculated using the Andover, Massachusetts, Submission Processing Site’s Cost/Savings
Analysis Calculator dated November 4, 2005.
                                                                                                      Page 15
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



                                                                                 Appendix V

                    Enterprise Life Cycle Overview

The ELC is the IRS’ standard approach to business change and information systems initiatives.
It is a collection of program and project management best practices designed to manage business
change in a successful and repeatable manner. The ELC addresses large and small projects
developed internally and by contractors.
The ELC includes such requirements as:
   •   Development of and conformance to an enterprise architecture.
   •   Improving business processes prior to automation.
   •   Use of prototyping and commercial software, where possible.
   •   Obtaining early benefit by implementing solutions in multiple releases.
   •   Financial justification, budgeting, and reporting of project status.
In addition, the ELC improves the IRS’ ability to manage changes to the enterprise; estimate the
cost of changes; and engineer, develop, and maintain systems effectively. Figure 1 provides an
overview of the layers, paths, phases, and milestones (shown as “MS” in Figure 1) within the
ELC Framework.




                                                                                         Page 16
                                            The Modernization and Information Technology Services
                                         Organization’s Revised Post Implementation Review Procedure
                                                               Can Be Improved



                                                                      Figure 1: ELC Framework
  Governance Management




                                                                                            Acquisition Management
                Layer




                                                                                             Program Management

                                                                                      Implementation Project Management
    Layer




                                                           MS0               MS1                MS2             MS3              MS4A         MS4B                MS5


                          Large Custom Path
                          Small Custom Path
  Solution Life Cycle




                          Commercial-Off-the-
                          Shelf Path             Vision and
                                                 Strategy /                           Domain                                          System           System       Operations and
         Layer




                          Joint Application                         Project                         Preliminary Detailed Design
                                                 Enterprise                         Architecture                                    Development      Deployment      Maintenance
                          Development /                        Initiation Phase                    Design Phase     Phase
                                                Architecture                           Phase                                           Phase           Phase            Phase
                          Rapid Application
                                                   Phase
                          Development Path
                          Iterative Custom
                          Path
  Methodology Solution




                                                Various Work    Various Work       Various Work    Various Work    Various Work     Various Work   Various Work
               Layer




                                                Products and    Products and       Products and    Products and    Products and     Products and   Products and
                                                  Reviews         Reviews            Reviews         Reviews         Reviews          Reviews        Reviews
     Layer




                                                                      Developer's Business Change or System Change Methodology



                                                                                  Enterprise Integration, Test, and Evaluation
  Specialty Areas




                                                                                  Business Rules Harvesting and Management
                                                                                             Transition Management
      Layer




                                                                                             Enterprise Architecture
                                                                                    Capital Planning and Investment Control
                                                                                              Security and Privacy
                                                                                  Requirements Development and Management

Source: Graphical representation of the ELC Framework modified from the ELC Guide.

ELC Layers
The ELC is a framework for organizing and using IRS directives, processes, procedures,
templates, and standards to accomplish business change. It is organized as a set of six interacting
layers.
          •               The Management Layer specifies how to plan and control business change programs,
                          projects, acquisitions, and solutions throughout the ELC.
          •               The Governance Layer specifies additional controls imposed from outside the project or
                          program.
          •               The Solution Life Cycle Layer specifies what should be done but not how to do it.
          •               The Solution Layer manages the solution as it is produced, including providing
                          standards for consistent solution specification and formal review of solution content.
                          This Layer provides control over work products that may be produced by multiple
                          internal and external developers using differing methodologies.


                                                                                                                                                                        Page 17
                       The Modernization and Information Technology Services
                    Organization’s Revised Post Implementation Review Procedure
                                          Can Be Improved



    •    The Methodology Layer details how to do the work and specifies a unique set of work
         products to be produced. Specific methodologies are not part of the ELC Framework.
    •    The Specialty Areas Layer provides additional guidance for areas of particular
         importance within the IRS. These areas include Enterprise Integration, Test, and
         Evaluation;1 Business Rules Harvesting2 and Management; Transition Management;3
         Enterprise Architecture; Capital Planning and Investment Control;4 Security and Privacy;
         and Requirements Development and Management.

ELC Paths
A path specifies a unique “philosophy” or orientation for performing the work. Although the
ELC specifies a standard for the work required to produce and operate business change solutions,
there are multiple ways to approach and accomplish the required work. Paths are like alternate
roads, each of which crosses different terrain, but all of which lead to the same destination. The
ELC provides five distinct paths or approaches to developing systems:
    •    The Large Custom Path is for large projects.
    •    The Small Custom Path is for small projects.
    •    The Commercial-Off-the-Shelf Path is a commercial, software-based approach.
    •    The Joint Application Development/Rapid Application Development Path is a highly
         accelerated, prototyping-based approach for very small, standalone solutions or solution
         components.
    •    The Iterative Custom Path is a hybrid approach that combines elements of the other
         approaches.

ELC Phases and Milestones
A phase is a broad segment of work encompassing activities of similar scope, nature, and detail
and providing a natural breakpoint in the life cycle. Each phase begins with a kickoff meeting
and ends with an executive management decision point (called a milestone) at which IRS

1
  Enterprise Integration, Test, and Evaluation includes processes for integrating multiple components of a solution
and conducting various types and levels of testing on the solution.
2
  A business rule is a statement that defines or constrains some aspect of the business. Harvesting is a general term
used to broadly describe the entire set of activities involved in gathering, formalizing, analyzing, and validating
business rules for a particular scope.
3
  Transition Management helps ensure personnel and organizations are prepared to receive, use, operate, and
maintain the business processes and technology provided by business change solutions.
4
  The Capital Planning Investment and Control process manages a central portfolio of information technology
investments across the IRS.
                                                                                                             Page 18
                     The Modernization and Information Technology Services
                  Organization’s Revised Post Implementation Review Procedure
                                        Can Be Improved



executives make “go/no-go” decisions for continuation of a project. Project funding decisions
are often associated with milestones.
                             Figure 2: ELC Phases and Milestones
                                                         General Nature                       Concluding
                  Phase                                      of Work                           Milestone
     Vision and Strategy/Enterprise   High-level direction setting. This is the only phase
                                                                                                  0
     Architecture Phase               for enterprise planning projects.
     Project Initiation Phase         Startup of development projects.                            1
     Domain Architecture Phase        Specification of the operating concept, requirements,
                                                                                                  2
                                      and structure of the solution.
     Preliminary Design Phase         Preliminary design of all solution components.              3
     Detailed Design Phase            Detailed design of solution components.                    4A
     System Development Phase         Coding, integration, testing, and certification of
                                                                                                 4B
                                      solutions.
     System Deployment Phase          Expanding availability of the solution to all target
                                      users. This is usually the last phase for development       5
                                      projects.
    Operations and Maintenance        Ongoing management of operational systems.               System
    Phase                                                                                     Retirement
   Source: The ELC Guide.




                                                                                                      Page 19
                   The Modernization and Information Technology Services
                Organization’s Revised Post Implementation Review Procedure
                                      Can Be Improved



                                                                                Appendix VI

              Authorities Requiring Post Reviews of
              New Information Technology Projects

•   Capital Asset Plan and Business Case (Office of Management and Budget
    Circular No. A-11 Exhibit 300, dated June 2002).
•   Chief Financial Officers Act of 1990, Pub. L. No. 101-576, 104 Stat. 2838 (codified as
    amended in scattered sections of 5 U.S.C., 31 U.S.C., and 42 U.S.C.).
•   Clinger-Cohen Act of 1996 (Federal Acquisition Reform Act of 1996) (Information
    Technology Management Reform Act of 1996), Pub. L. No. 104-106, 110 Stat. 642 (codified
    in scattered sections of 5 U.S.C., 5 U.S.C. app., 10 U.S.C., 15 U.S.C., 16 U.S.C., 18 U.S.C.,
    22 U.S.C., 28 U.S.C., 29 U.S.C., 31 U.S.C., 38 U.S.C., 40 U.S.C., 41 U.S.C., 42 U.S.C.,
    44 U.S.C., 49 U.S.C., 50 U.S.C.).
•   Conducting Post-implementation Reviews Using a Standard Methodology (Government
    Accountability Office Evaluation Process, dated February 2006).
•   Executive Order 13011, Sec. 2 (b) (3) Federal Information Technology.
•   Federal Acquisition Streamlining Act of 1994 Pub. L. No. 103-355 (1994).
•   Government Performance and Results Act of 1993, Pub. L. No. 103-62, 107 Stat. 285
    (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).
•   Investment Decision Management Post Implementation Review Procedure (Enterprise Life
    Cycle, dated June 2000).
•   Management of Federal Information Resources (Office of Management and Budget Circular
    No. A-130, dated March 2006).
•   Paperwork Reduction Act of 1995, Pub. L. No. 104-13.
•   Post Phase/Milestone and Post Release/Project Implementation Reviews
    (BSMO-BI-PPM-PIR Procedure, dated October 2004).




                                                                                         Page 20
              The Modernization and Information Technology Services
           Organization’s Revised Post Implementation Review Procedure
                                 Can Be Improved



                                                                 Appendix VII

                         Glossary of Terms

Term                               Definition
Acquisition Project Manager        Acquisition Project Managers have overall
                                   responsibility for the technical and
                                   management aspects of projects in
                                   development, as well as changes to a
                                   contract or task order.
Baseline Business Case             A Baseline Business Case documents the
                                   business case for proceeding with a project
                                   beyond design and development and is
                                   intended to justify the need and benefits of
                                   a project to the investment decision
                                   makers.
Case for Action                    A Case for Action is a documented
                                   communication providing compelling
                                   reasons to change business practices.
Concept of Operations              An organization develops a Concept of
                                   Operations to establish the desired
                                   product-line approach it wishes to take.
Custodial Accounting Project       The Custodial Accounting Project planned
                                   to use a data warehousing approach for
                                   storing, analyzing, and reporting taxpayer
                                   account and collection information.
Customer Account Data Engine       The Customer Account Data Engine is the
                                   foundation for managing taxpayer accounts
                                   in the IRS modernization plan. It will
                                   consist of databases and related
                                   applications that will replace the IRS’
                                   existing Master File processing systems
                                   and will include applications for daily
                                   posting, settlement, maintenance, refund
                                   processing, and issue detection for taxpayer
                                   tax account and return data.

                                                                              Page 21
                 The Modernization and Information Technology Services
              Organization’s Revised Post Implementation Review Procedure
                                    Can Be Improved



Term                                   Definition
Document Management System             The Document Management System
                                       provides a central location and automated
                                       processes for storing, retrieving, and using
                                       Modernization and Information
                                       Technology Services organization
                                       document files.
e-Services                             The e-Services project provides a set of
                                       web-based business products as incentives
                                       to third parties to increase electronic filing,
                                       in addition to providing electronic
                                       customer account management capabilities
                                       to all businesses, individuals, and other
                                       customers.
Exhibit 300                            The Exhibit 300 is a Capital Asset Plan and
                                       Business Case required by the Office of
                                       Management and Budget.
Filing and Payment Compliance          The Filing and Payment Compliance
                                       project will provide support for detecting,
                                       scoring, and working nonfiler cases (filing
                                       compliance) and delinquency cases
                                       (payment compliance).
Information Technology Modernization   The Information Technology
Vision and Strategy                    Modernization Vision and Strategy
                                       establishes a 5-year plan that drives
                                       investment decisions, addresses the
                                       priorities around modernizing front-line tax
                                       administration and supporting technical
                                       capabilities, and leverages existing systems
                                       (where possible) and new development
                                       (where necessary) to optimize capacity,
                                       manage program costs, and deliver
                                       business value on a more incremental and
                                       frequent basis.




                                                                                  Page 22
               The Modernization and Information Technology Services
            Organization’s Revised Post Implementation Review Procedure
                                  Can Be Improved



Term                                Definition
Integrated Financial System         The Integrated Financial System is
                                    intended to address administrative financial
                                    management weaknesses. The first release
                                    of the Integrated Financial System will
                                    include the Accounts Payable, Accounts
                                    Receivable, General Ledger, Budget
                                    Execution, Cost Management, and
                                    Financial Reporting activities. A future
                                    Integrated Financial System release will be
                                    needed to fully resolve all administrative
                                    financial management weaknesses.
Metric                              A metric is a standard of measurement.
Milestone                           Milestones provide for “go/no-go” decision
                                    points in a project and are sometimes
                                    associated with funding approval to
                                    proceed.
Modernized e-File                   The Modernized e-File project develops the
                                    modernized, web-based platform for filing
                                    approximately 330 IRS forms
                                    electronically, beginning with the U.S.
                                    Corporation Income Tax Return
                                    (Form 1120), U.S. Income Tax Return for
                                    an S Corporation (Form 1120S), and
                                    Return of Organization Exempt From
                                    Income Tax (Form 990). The project
                                    serves to streamline filing processes and
                                    reduce the costs associated with a
                                    paper-based process.
Release                             A release is a specific edition of software.




                                                                             Page 23
       The Modernization and Information Technology Services
    Organization’s Revised Post Implementation Review Procedure
                          Can Be Improved



                                                  Appendix VIII

Management’s Response to the Draft Report




                                                          Page 24
   The Modernization and Information Technology Services
Organization’s Revised Post Implementation Review Procedure
                      Can Be Improved




                                                      Page 25
   The Modernization and Information Technology Services
Organization’s Revised Post Implementation Review Procedure
                      Can Be Improved




                                                      Page 26
   The Modernization and Information Technology Services
Organization’s Revised Post Implementation Review Procedure
                      Can Be Improved




                                                      Page 27
   The Modernization and Information Technology Services
Organization’s Revised Post Implementation Review Procedure
                      Can Be Improved




                                                      Page 28
